               Supplemental Report on Audit of Direct and
                   Indirect Costs for Fiscal Year 2002

                                October 2003

                     Reference Number: 2004-1C-011




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                          October 31, 2003


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Supplemental Report on Audit of Direct and Indirect Costs for
                              Fiscal Year 2002 (Audit #20041C0206)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s Research and
       Development Company August 1, 2002, certified final indirect cost rate proposal and
       related books and records for the reimbursement of Fiscal Year 2002 incurred costs.
       The purpose of the examination was to determine the allowability and allocability of
       direct and indirect costs and to recommend contracting officer determined indirect cost
       rates for the period February 1, 2001, through January 31, 2002. The proposed rates
       apply primarily to the contractor’s flexibly priced contracts.
       The DCAA stated that this supplemental report incorporates the revised home office
       questioned costs that were provided subsequent to their original DCAA report. The
       DCAA also updated the Schedule of Unresolved Subcontract Cost. The remainder of
       the original audit results remains unchanged. The DCAA qualified its audit report
       because the results of the assist audits for the subcontract costs had not been received.
       These audits may disclose questioned costs.
       The DCAA indicated that the contractor’s indirect rates are acceptable as proposed.
       According to the DCAA, the examination found expressly unallowable costs in the
       offsite overhead and General and Administrative pools. However, the questioned costs
       had no significant impact on the claimed rates. Additionally, claimed direct costs,
       subject to the qualification, are acceptable and provisionally approved pending final
       acceptance.
                                           2




The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director at (202) 927-7077.

Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
